<html>
<title> - ADVANCING U.S. INTERESTS IN THE WESTERN HEMISPHERE: THE FY 2018 BUDGET REQUEST</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


ADVANCING U.S. INTERESTS IN THE WESTERN HEMISPHERE: THE FY 2018 BUDGET 
                                REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 12, 2017

                               __________

                           Serial No. 115-81

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______


                   U.S. GOVERNMENT PUBLISHING OFFICE                    
26-223PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4f283f200f2c3a3c3b272a233f612c2022">[email&#160;protected]</a>                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                               ------                                

                 Subcommittee on the Western Hemisphere

                 JEFF DUNCAN, South Carolina, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MO BROOKS, Alabama                   NORMA J. TORRES, California
RON DeSANTIS, Florida                ADRIANO ESPAILLAT, New York
TED S. YOHO, Florida                 GREGORY W. MEEKS, New York
FRANCIS ROONEY, Florida
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Francisco Palmieri, Acting Assistant Secretary, Bureau of 
  Western Hemisphere Affairs, U.S. Department of State...........    14
Ms. Sarah-Ann Lynch, Acting Assistant Administrator, Bureau for 
  Latin America and the Caribbean, U.S. Agency for International 
  Development....................................................    14

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Jeff Duncan, a Representative in Congress from the 
  State of South Carolina, and chairman, Subcommittee on the 
  Western Hemisphere: Prepared statement.........................     2
The Honorable Albio Sires, a Representative in Congress from the 
  State of New Jersey: Prepared statement........................     5
Mr. Francisco Palmieri: Prepared statement.......................     7
Ms. Sarah-Ann Lynch: Prepared statement..........................     9

                                APPENDIX

Hearing notice...................................................    32
Hearing minutes..................................................    33
The Honorable Jeff Duncan: Material submitted for the record.....    34
Questions submitted for the record by the Honorable Jeff Duncan, 
  the Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York, and the Honorable Norma J. Torres, a 
  Representative in Congress from the State of California........    38

 
                    ADVANCING U.S. INTERESTS IN THE
                    WESTERN HEMISPHERE: THE FY 2018
                             BUDGET REQUEST

                              ----------                              


                        WEDNESDAY, JULY 12, 2017

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 3:08 p.m., in 
room 2172, Rayburn House Office Building, Hon. Jeff Duncan 
(chairman of the subcommittee) presiding.
    Mr. Duncan. All right. A quorum being present, the 
subcommittee will come to order.
    We are going to go ahead with an abbreviated agenda today 
just due to time of our witnesses and be respectful, because we 
are delayed. We are delayed by votes on the House floor, and 
our witnesses have a hard stop departure this afternoon. And 
the ranking member, our witnesses, and I have agreed to forego 
our opening statements so we can proceed immediately to member 
questions and answers.
    Statements will be provided for the record, if anybody 
would like to read the witnesses' statements, opening 
statements of the members. I want to thank everyone for their 
cooperation and patience. This is the way the schedule goes 
sometimes.
    So, without objection, everyone's opening statements will 
be entered in the record, and we will now proceed to questions.
    [The information referred to follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Duncan. I guess I am first.
    The ranking member is on his way.
    In Cuba, in recent years, attacks against dissidents and 
violations of human rights in Cuba have increased. As of May 8, 
the Cuban Commission for Human Rights and National 
Reconciliation reported that there were at least 1,867 short-
term detentions for political reasons in the first 4 months of 
2017. Today, Cuba has at least 140 political prisoners. Despite 
the June rollout of new policy with emphasis on protecting the 
human rights of Cubans, democratic assistance to Cuba was cut 
from the 2018 request down from $20 million in democracy 
assistance in the 2016 that was used to support human rights 
groups and civil society on the island.
    So how does the administration reconcile the public support 
for human rights on one hand and freedom in Cuba with the 
elimination of funding that provides capacity-building and 
support to local groups and organizations that are promoting 
these rights on the island?
    Mr. Palmieri.
    Mr. Palmieri. Thank you, Mr. Chairman, for that question. 
Foreign assistance was reduced globally, sir. And we believe we 
have a number of other tools that will permit us to continue to 
engage and press Cuba on the human rights front. We will 
continue to use our Embassy in Havana to do outreach to human 
rights and civil society groups. We will engage in multilateral 
fora, such as the OAS and the Inter-American Commission on 
Human Rights. We will work with international partners, the EU, 
and other countries of the Western Hemisphere to apply 
pressure. We will continue--through direct bilateral talks, 
such as the Human Rights Dialogue--to press Cuba on that 
specific issue, sir.
    Mr. Duncan. Ms. Lynch?
    Ms. Lynch. Thank you, sir.
    We have an existing appropriation that does get to the 
humanitarian assistance issues that you mentioned, whereby we 
are providing a package of goods to political dissidents, 
political prisoners, and their families, and we will continue 
to program that appropriation with existing funding.
    Mr. Palmieri. Sir, I was also----
    Mr. Duncan. Yes, sir.
    Mr. Palmieri. I was also remiss in not mentioning the 
President's new National Security Presidential Memorandum makes 
it clear that engagement on human rights and democracy issues 
in Cuba will be at the forefront of everything we do in the new 
policy.
    Mr. Duncan. Okay. Thank you for that.
    Focus on Venezuela. We have a letter going to President 
Trump on Venezuela. Current signers are myself, the ranking 
member, Ms. Ros-Lehtinen, and Francis Rooney. I am going to ask 
unanimous consent to put this in the record, but I also would 
like to pass this around if anyone would like to sign it.
    But Venezuela and some of the actions there by Maduro 
creating a Constituent Assembly as they call it, and, 
basically, undermining the Venezuelan Constitution. Can you 
talk with me a little bit about what the focus is in this 
budget with Venezuela, with regard to what the United States is 
doing with Venezuela, and how it may positively or negatively 
impact the Maduro regime?
    Mr. Palmieri. Yes, sir. We continue to be focused on the 
four commitments that the Venezuelan Government made in the 
dialogue and mediation efforts led by the Vatican last fall. 
That is to immediately release all political prisoners, to 
schedule the elections that have been postponed, to address the 
humanitarian needs, and, most importantly, sir, to respect the 
Venezuelan Constitution and the role of the duly elected 
National Assembly to allow it to be a part of the democratic 
process more fully and to provide solutions to the crises in 
the country.
    Mr. Duncan. Ms. Lynch?
    Ms. Lynch. Yes. We have existing activities in Venezuela 
working with civil society organizations with four U.S.-based 
NGOs here and then 30 to 35 NGOs in Venezuela, and we will 
continue to be working with those civil society organizations 
to increase awareness of what is happening on the ground and to 
increase the ability to report on human rights abuses, 
corruption, things of that nature. We are also working with the 
National Assembly to increase their ability to be legislators, 
doing training and capacity building there.
    In addition, we are doing assessments, to the extent we 
can, on the situation on the ground in the food area, in the 
economic area, in the financial area, and putting together 
those assessments so, should there be an opportunity to do 
more, we will be prepared to have a good response.
    Mr. Duncan. Okay. Does the Department of State think that 
democracy and governance support is necessary in the Western 
Hemisphere?
    Mr. Palmieri. Absolutely, sir.
    Mr. Duncan. Okay. You think that is broad--let's broaden it 
beyond. You are from the Western Hemisphere sector, so maybe 
that is not fair. But do you think that is a policy of the 
State Department in general, to support democracy and 
governance?
    Mr. Palmieri. Yes, sir.
    Mr. Duncan. Okay. Thank you.
    Would you agree that foreign aid is a tremendous foreign 
policy tool?
    Mr. Palmieri. It is a critical and important part of our 
national power, yes, sir.
    Mr. Duncan. So influencing foreign policy in a positive way 
with foreign aid is one thing. Withholding of foreign aid or 
limiting foreign aid could have a very impactful effort as 
well, I guess. Right?
    Mr. Palmieri. I would say, sir, there are many tools that 
we have at our disposal. In a constrained budget environment, 
we have to determine which priorities and which tools we can 
use to their greatest effect based on each individual's 
circumstance, yes.
    Mr. Duncan. Let me just state for the record: There are a 
number of countries that receive a tremendous amount of U.S. 
foreign aid that don't support U.S. efforts sometimes, whether 
it is votes at the U.N. or the OAS. I am not going to ask you 
to comment on that. That is my opinion.
    I am going to now turn to the ranking member.
    Mr. Sires. Thank you, Chairman, and thank you for holding 
this meeting.
    First of all, I thank you for coming before the committee. 
And I have certain concerns regarding this budget, especially 
some of the cuts. I was in Honduras and Guatemala with my 
colleague, Ileana Ros-Lehtinen. And one of the things that we 
saw there is how we are helping these countries, especially the 
Attorneys General of those countries, keeping up under a lot of 
pressure. I was wondering if some of the cuts are going to 
impact those Attorneys General and their offices?
    Mr. Palmieri. I would agree, sir, that the work of the 
three Attorneys General in the Northern Triangle countries 
specifically have produced some important results over the last 
few years. There is a renewed commitment by all three of those 
individuals to attacking impunity, and the support that we can 
provide them is money well spent.
    Ms. Lynch. Yes. I totally agree with my colleague. Under 
this budget request, we do suggest continued support for the 
Attorneys General as well as other national institutions that 
get to issues of impunity and corruption, such as MACCIH in 
Honduras.
    Mr. Sires. There is also the elimination of the Food for 
Peace programming in the budget. I was wondering how you feel 
about that?
    Ms. Lynch. We will continue with some agriculture funding 
particularly in the three countries of the Northern Triangle of 
Central America, as well as in Haiti.
    Mr. Sires. Mr. Palmieri?
    Mr. Palmieri. The Food for Peace program?
    Mr. Sires. Yeah, programming.
    Mr. Palmieri. I would defer to my USAID colleague's answer, 
yes, sir.
    Mr. Sires. Okay. Who will speak on funding global health? 
You will also?
    Ms. Lynch. Sure.
    Mr. Sires. I know there is a 62 percent cut there also. So 
I was wondering how you feel about that.
    Ms. Lynch. Right. We do seek to continue funding global 
health in certain areas. In maternal and child health, for 
example, in Haiti, where we want to build on the important work 
that we have already done there, as well as in Guatemala, where 
we are looking to shift much of that funding to nutrition, 
which is key to some of the important and most problematic 
issues in Guatemala, which are stunting.
    Mr. Sires. Mr. Palmieri, what kind of a message do you 
think we are sending to this part of the world when we have 
these cuts?
    Mr. Palmieri. In Central America, I think what we are 
trying to do is build on the efforts that have been made in 
previous budgets. In Fiscal Year 2015, Fiscal Year 2016, and 
Fiscal Year 2017, we have a combined $2 billion that we are 
directing to Central America.
    And so Secretary Tillerson, with Secretary Kelly and 
Secretary Mnuchin, hosted a conference last month on Central 
America where the President of Honduras, the President of 
Guatemala, and the Vice President attended, and we began to 
look at ways that we can involve the private sector, 
multilateral development banks, and so that we can deepen the 
economic investments in the region. And through both our 
previous assistance and the additional money in the Fiscal Year 
2018 budget, we can begin to address some of the underlying 
conditions there.
    Mr. Sires. Thank you. I don't want you to think this is the 
only administration I said this about. I was also concerned the 
previous administration that we were not focusing enough 
attention on the Western Hemisphere. Because I really feel that 
it is one of those places where we have neglected due to the 
fact that, you know, the world is at war, basically, and in the 
Middle East, and the focus, the attention, is there. But I 
think we would be shortsighted if we don't pay attention to our 
backyard.
    It is critical that we continue to support some of these 
programs and continue to harbor a relationship like we always 
had.
    Mr. Palmieri. Yes, sir. I agree. And I think Secretary 
Tillerson has made the Western Hemisphere a priority at the 
start of his work here, the Central America conference, his 
first trip was to Mexico. I think we are working hard at both 
the issues of national security and economic prosperity, 
because we do believe what is good for the United States is 
also good for the region. And working together, we can continue 
a positive path, as you just outlined.
    Mr. Sires. I am concerned about the security, because some 
of the players that are going to South America are not our 
friends. So security is very important.
    Thank you, Mr. Chairman.
    Mr. Duncan. I agree with you. I hope that is Tillerson's 
focus and opinion. I haven't asked him. I hope that's correct. 
I applaud him for that, because that is what we are going to 
focus on.
    I will now go to the gentlelady from Florida, the former 
chairwoman, and the current chairwoman of Middle East and North 
Africa.
    Ms. Ros-Lehtinen. Thank you, very much, Mr. Chairman.
    And welcome to you both.
    As Mr. Sires pointed out, he and I traveled to Guatemala 
and Honduras in March. It was a wonderful visit to great 
countries who are solid allies of the U.S.
    And while we were there in Honduras, I asked our Ambassador 
to please look into the visa restrictions that we placed--
previous administration--in 2009. And after nearly a decade, 
boy, we really need to return the visas to the Hondurans 
impacted.
    Could I receive your assurances, Mr. Palmieri, that you 
will look into this matter and that you would please get back 
to me on this?
    Mr. Palmieri. We will absolutely get back to you on that 
issue, Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you.
    They have been so singled out and punished for adhering to 
the constitution. And they were proven correct. But, still, 
they are there, unable to leave their country. So thank you so 
much.
    Furthermore, Mr. Palmieri, the Cuban directive, as we know, 
was issued on June 16th. And that directive states that the 
changes shall not prohibit the support for democracy programs 
in Cuba. And that is so important. But the budget proposal 
zeroed out budget programs in Cuba. And I know that the 
chairman and the ranking member have pointed that out, how 
these cuts just seem to be maybe penny wise, pound foolish.
    Can civil society groups in Cuba survive without this much 
needed U.S. assistance?
    Mr. Palmieri. I believe that the President's new National 
Security Policy Memorandum makes it a focus of the U.S. 
Government's effort to engage on human rights and democracy in 
Cuba. And I believe we have tools that will be available to us 
through our Embassy on the island with multilateral partners, 
with other regional partners, to continue to engage with human 
rights activists on the island and civil society groups. And I 
believe the new policy will enable us to continue that 
engagement effectively.
    Ms. Ros-Lehtinen. Good. And we welcome the arrival of the 
new chief of that section or intersection or Embassy or 
whatever it is we are calling it these days.
    In Nicaragua, as we know, the Ortega regime continues to 
use his cronies to threaten and undermine civil society 
members, human rights organizations. Yet, again, the budget 
proposal zeros out democracy programs in Nicaragua as well.
    What is the justification for doing that in Nicaragua, sir?
    Mr. Palmieri. Again, I think foreign assistance was reduced 
globally. And in an era of constrained budgets, we had to make 
some difficult priority decisions. Again, in a place like 
Nicaragua, we have a fully staffed Embassy. I think we can be 
effective and efficient with some of the other resources we 
will have at our disposal there to engage with the civil 
society and human rights activists, and to try to continue to 
advance our national interests in Nicaragua.
    Ms. Ros-Lehtinen. Thank you.
    And lastly--Mr. Chairman, thank you--we get to Venezuela. 
And I think that the programs in Venezuela have been 
transformational, have played a substantial and important role 
in helping the people of Venezuela. Would you both agree with 
that assessment?
    And I know that you are agreeing, but what is the 
justification of zeroing out funds for Venezuela when it is one 
of the most important programs with bicameral and bipartisan 
support on the Hill? It has become a great investment to 
advance U.S. interests in the region.
    Mr. Palmieri. We absolutely need to continue to support the 
Venezuelan people in their effort to reestablish and restore 
their democratic institutions, and we will use all the tools 
available to us in that effort.
    Ms. Ros-Lehtinen. Thank you. And speaking of the tools, 
before the committee adjourns, I would kindly give you a list 
of more human rights violators of Venezuela whom we would like 
the administration to place on the sanctions list so that they 
are not able to come and visit Mickey Mouse in Disney World and 
shop at Bal Harbour and enjoy all the wonderful freedoms that 
we have here, while they beat the heads and shoot at 
demonstrators in Venezuela.
    Mr. Chairman, thank you for the opportunity to show a short 
video on the latest violence orchestrated by Maduro and his 
cronies against the people of Venezuela. And I would like to 
thank the brave Venezuelan civil society groups on the ground 
for doing an amazing job of monitoring the situation, putting 
this video together for our subcommittee.
    Thank you.
    [Video shown.]
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    Mr. Duncan. I will thank the gentlelady for her continued 
focus in helping keep this subcommittee focused on Venezuela 
and the human rights abuses going there and, hopefully, future 
regime change there that we all are hoping for.
    The Chair will now go to Mrs. Torres.
    Mrs. Torres. Thank you, Mr. Chairman.
    And thank you to our guests for being here. It is great to 
see you.
    As the founder of the Central America Caucus, I have been a 
strong supporter of U.S. strategy for engagement in Central 
America. I have a firm commitment to continuing to work in the 
region in the Northern Triangle.
    And as we continue to make the argument for aid in Central 
America, we need to be able to account for where this aid is 
going. We need to effectively measure their progress and 
measure its impact.
    The first $750 million that we appropriated in Fiscal Year 
2016, just to make sure, none of that money has gone to the 
government of any of these countries. Is that correct? Directly 
into the coffers of the government.
    Mr. Palmieri. That's correct. It is not our policy to 
deliver that money directly to the government.
    Mrs. Torres. I just wanted that for the record. There has 
been a lot of questions within groups around how that money is 
being spent.
    Can you account for how much has been spent in each 
country, and how much is going through contractors versus NGOs, 
and how the money is balanced between the three main pillars: 
The rule of law, development, and security? I just want to make 
sure and get a basic sense of where that money is going.
    Ms. Lynch. With all that detail, we may have to get back to 
you on some of those numbers. But I would say that it is not a 
cookie-cutter approach to each of the countries. So the sectors 
might vary from one country to another, and it depends on the 
emphasis of our programming.
    Mrs. Torres. Okay.
    Mr. Palmieri. In general, they go to three central pillars 
of our effort in Central America that get at the drivers of 
irregular migration. We are trying to improve all three 
country's ability to address the security conditions in the 
country. We are trying to help them improve their governance 
programs, like improving their ability to collect taxes so that 
their institutions have the ability to provide social services.
    Mrs. Torres. And all of that is important, as well as 
education. And I want to make sure that the bulk of the money 
isn't just going for security or to build up more borders. I 
want to make sure that we are actually spending money to 
address the root causes that bring children to have to flee 
their country.
    How are you measuring progress in the Northern Triangle? 
What are the main indicators that you are using in order to 
ensure that what we are doing, the work that we are doing, is 
actually making a difference?
    Ms. Lynch. Some of the indicators that we have are that the 
governments are taking an interest in investing their own 
resources in many of the things that we are doing. So, for 
example, in Guatemala, we helped stand up the 24-hour courts, 
which help them respond to the legislation that says a detainee 
has to report to a judge within 24 hours. We helped stand up 
these courts. The Guatemalans have now taken them over.
    Another measure of success is private sector engagement. We 
now have a great number of private sector efforts there, 
public-private partnerships, if you will. Microsoft, in El 
Salvador, is a good example, where they are working with at-
risk youth to educate them in various areas, including in 
computers. And then, finally, civil society, keeping an eye on 
the government.
    Mrs. Torres. I want to thank you both for recognizing the 
efforts of CICIG and MACCIH, and the efforts of the Attorneys 
General leading those causes, and the impact that their work 
has had on their personal lives and their family and the number 
of threats.
    Are you aware that four members of the Guatemalan Congress 
have hired and are paying $80,000 a month for a lobbying firm 
to come here? And I am assuming that they are lobbying against 
CICIG.
    Mr. Palmieri. I have seen those press reports that there 
are press reports of these four individuals engaging a lobbying 
effort. I do not have specific factual information about what 
they are funding or not funding.
    Mrs. Torres. At some point I would like for you to report 
back to this committee if that is true. Because I think that we 
are spending a significant amount of money, amount of effort, 
our own time, to focus on that. And as far as I am concerned, 
my commitment to the Northern Triangle is contingent on the 
work of CICIG and the work of MACCIH.
    Mr. Palmieri. Thank you. We will do that.
    Mr. Duncan. The gentlelady's time has expired.
    The Chair will now go to Mr. Rooney from Florida.
    Mr. Rooney. Thank you, Mr. Chairman.
    There are 85 countries that don't take our deportees. ICE 
considers 23 of them recalcitrant countries. They consider 62 
of them noncooperators. There are 243,000 people, illegal, 
under deportation orders that their home country won't accept; 
57,000 of them have been convicted of a crime. Cuba is number 
two in the people that they won't accept, that is 40,000. Haiti 
is number three, 35,000. And Brazil is number four at 30,000.
    We had a fellow named Jean Jacques, you may know about him, 
an illegal Haitian, who was--three times ICE tried to return 
him to Haiti, and they wouldn't take him. And within 6 months 
of the third time, in mid-2016, he brutally murdered a 25-year-
old lady in Connecticut.
    In 2015, we gave Haiti $\1/2\ billion. And right now you 
are proposing giving Haiti $157.5 million. So my question--and 
one more thing. In addition to countries that don't accept our 
deportees, we gave, in 2016, Ecuador, under Rafael Correa--
where I don't even think we had an ambassador at the time--$10 
million. We gave Argentina $2\1/2\ million. And in Bolivia, 
under Evo Morales, in 2015--where I am not sure we had an 
ambassador back down there by that time--we gave them $56.5 
million.
    So my question is: Why should we support USAID when you are 
giving money to countries that won't accept our deportees and 
that are supporting countries where we can't even position an 
ambassador and are run by authoritarian dictators?
    Ms. Lynch. Sir, we have had a lot of very good investments 
both in Haiti, in particular, and Ecuador, in the past. We 
actually have not had a very extensive program in Ecuador in 
the recent past. For USAID's part, we have about a $2 million 
project that has been funding civil society organizations, not 
the government at all. Those organizations actually draw 
attention to some of the issues that you raise. So they are 
there to raise awareness of things like human rights abuses, 
lack of governance, corruption, impunity, and things of that 
nature.
    In Haiti, similarly, we do have an effort at civil society, 
building the capacity for organizations to do the same. At the 
same time, we are working, again, primarily with the NGO 
community and private sector, to build up private sector 
competitiveness. But also, on the health side of things, post-
earthquake, there were many, many issues, of course, I am sure 
you are aware of. We have moved out of some of the those, the 
infrastructure, into things like housing, finance, and whatnot. 
But, basically, to create a situation of stability in order to 
reduce the possibility of illegal immigrants coming from a 
place like Haiti, same in Central America.
    Mr. Palmieri. In addition, sir, we are working closely with 
the Department of Homeland Security on a new initiative in this 
administration to address the problem of recalcitrant countries 
and their unwillingness to accept the repatriation of duly 
deported--individuals who are ready for deportation.
    Mr. Rooney. I am really glad to hear that you are 
supportive of the move of the DHS to take over consular 
deportation activities and get it out of the State Department. 
That is the proposal. The proposal is to move it to the 
Department of Homeland Security, right?
    Mr. Palmieri. I am not aware of any proposal at this time. 
But what I was referencing, sir, was the effort that the State 
Department, with the Department of Homeland Security, is 
looking at ways that we can enhance the repatriation of 
individuals who are identified for deportation to recalcitrant 
countries that have not taken----
    Mr. Rooney. So is there any thought about cutting off their 
money, or are we going to continue to fund programs while they 
won't do it?
    Mr. Palmieri. Depending on the country, we have a lot of 
different interests that are in play. But it is very clear 
under this administration that we are addressing the problem of 
recalcitrant countries, yes, sir.
    Mr. Rooney. Thank you.
    I yield.
    Mr. Duncan. I thank the gentleman.
    I now go to Mr. Espaillat.
    Mr. Espaillat. Thank you, Mr. Chairman.
    Welcome.
    The Inspector General for the Department of State and 
Justice released a report recently that says that State 
Department employees were involved in a coverup of a 2012 
incident where a drug raid in Honduras went wrong and four 
civilians were killed. The report finds that the State 
Department employees failed to comply with and undermined the 
Ambassador's Chief of Mission authority.
    How is the State Department holding accountable these 
employees cited in the IG's report?
    Mr. Palmieri. Thank you for the question, Mr. Espaillat. 
The IG's report is being handled at the Department and we are 
preparing our response to those recommendations.
    Mr. Espaillat. How are we doing with so far as the 
nominations of potential ambassadors in Latin America and the 
Caribbean? Where are we now? Because many of these countries 
are in instability or right in the middle of a crisis. Do we 
have any progress with regards to nomination and appointments?
    Mr. Palmieri. Yeah. I believe the administration is making 
significant process on the appointment of ambassadors in the 
Western Hemisphere. We have nominees for Canada, the Bahamas, 
Guatemala, Peru, and Costa Rica, and are working on their 
nominations, sir.
    Mr. Espaillat. Okay. TPS is about to expire for the 
triangle countries of Honduras, El Salvador, and Guatemala. 
What is the State Department's position of continuing TPS for 
several hundred thousand people in the U.S. that are under that 
status?
    Mr. Palmieri. A temporary protective status, TPS, is a 
Department of Homeland Security authority, and we will wait for 
them to consult with us at an appropriate time ahead of that 
decision, sir.
    Mr. Espaillat. Last year, President Obama signed into law a 
bipartisan U.S.-Caribbean Strategic Engagement Act, authored by 
both Representatives Engel and Ros-Lehtinen. The administration 
recently released its new strategy for engaging with the 
subregion, which was mandated by the bill. Writing a strategy 
is one thing, but implementing one is another. What are you 
planning to do to implement this particular initiative?
    Mr. Palmieri. Well, we began last week. Under Secretary Tom 
Shannon and I attended the Summit of CARICOM Heads of 
Government in Grenada.
    Mr. Espaillat. Grenada.
    Mr. Palmieri. We had extensive meetings during the 2 days 
that we were there with different heads of government to talk 
about the strategy that we prepared in response to the 
legislation and to consult with them on the priorities that we 
have listed in that report. We will continue to consult 
stakeholders here in the United States, continue conversations 
with the Congress, and develop that proposed strategy and 
implement it as quickly and as effectively as we can.
    Mr. Espaillat. Thank you.
    Now, the Caribbean Basin Security Initiative is another 
important initiative for a geopolitical region that is very 
important to us. And there is currently an economic meltdown in 
Puerto Rico, Cuba still very unstable, Dominican Republic, 
Haiti are also facing great challenges, opening the door there 
for perhaps increasing crime, drug trafficking, human 
trafficking. We have seen a reduction in the budget for that 
region from $57.7 million to 36.2, and a 36 percent reduction 
altogether.
    So how are we going to be able to respond to the emerging 
need of that important region for the United States, given the 
fact that there has been such a dramatic cut in aid for that 
particular region of the world?
    Mr. Palmieri. Foreign assistance was reduced globally. In 
the Caribbean, earlier aspects of the Caribbean Security 
Initiative focused on bigger ticket items, like maritime 
vessels. And, now, as we move forward in the CBSI, our programs 
are more focused toward capacity building, training, and 
maintenance. And so we believe we can continue to use the level 
of funding that is available to us to advance our national 
interests there, sir.
    Mr. Espaillat. Thank you for your answers. Thank you so 
much.
    Mr. Duncan. I thank the gentleman.
    The Chair will now go down to Mr. DeSantis from Florida.
    Mr. DeSantis. Well, thank you, Mr. Chairman.
    Thank you to the witnesses. I appreciate your service.
    I would like to start seeing some of the folks who are 
going to be the actual appointees nominated and confirmed. I 
think that is important, particularly for the Western 
Hemisphere. I have been supportive, and I know the chairman 
has, of Mauricio Claver-Carone. I think he would do a great 
job. But bottom line is, we would love to see these decisions 
made so that these folks can get in place. But I appreciate 
what you are doing.
    Let me ask just you, just to follow up with my friend from 
Florida, why hasn't the State Department ever halted visas when 
some of these countries will not take back, particularly the 
criminal illegal aliens? Under the law, if they are not doing 
it, State Department shuts off visas until they start to do it. 
But we have never done that, and I just don't know why.
    Mr. Palmieri. I think that is a very good question. And I 
would want to consult closely with our Bureau of Consular 
Affairs. I know the decision to cease visa processing is a very 
serious one that also has impacts on the U.S. economy in terms 
of people being able to travel back and forth who might not 
fall----
    Mr. DeSantis. Well, without question. But I think if you 
use it, then I think that a lot of the countries are going to 
change their ways. Because it has a lot of effects on their 
economies too. And as I understand the law, once DHS says, hey, 
these countries are recalcitrant--it used to be the Attorney 
General before DHS, because this law predated DHS--then I think 
the State Department has to do it. And we have been trying to 
figure out, is it DHS that is just not providing this to the 
State Department or is the State Department dragging its feet? 
And it may be the former as well.
    But I think if we can get in a situation where these 
countries are respecting this, where particularly these 
criminal illegals, bringing them back, they are accepting 
that--I don't even think you would need to use it then. But I 
think at some point you have got to do something, because they 
have figured out they are just not going to play ball with us. 
And I think the tragedy has been that has harmed some of our 
citizens here, when these people are released into American 
society.
    Let me ask you about Cuba. We had a big policy change in 
Cuba announced in the winter of 2015. Have human rights on the 
island improved since that policy change in December 2015?
    Mr. Palmieri. I think President Trump's new policy review 
of our Cuba policy focuses exactly on that question: How can we 
ensure that U.S. engagement promotes human rights and democracy 
on the island?
    Mr. DeSantis. But is it fair to say that there has not 
really been an improvement? Because as I watched it, people 
said, hey, the policy hasn't worked, we got to change. Then you 
changed the policy, and you actually had political arrests go 
up, and you had even more repression in some respects. And so I 
don't think you can say--I know I appreciate the President's 
review of this and changes. I think those are positive steps. 
But, man, for those 2 years, or 1\1/2\ years, I didn't see very 
much progress. Am I wrong?
    Mr. Palmieri. I think the policy review clearly reflects 
that we need to work to ensure that U.S. engagement in Cuba 
produces the kind of progress you are talking about.
    Mr. DeSantis. Venezuela. It has just been an absolute 
disgrace what is going on there. We have been engaged on this 
committee for now--I mean, a long time. Since you have really 
been chairman. And I would like to see us do more to empower 
the people that are being oppressed.
    What is the State Department doing? Is there more Congress 
can do to help the people that are suffering under the yoke of 
the Maduro dictatorship?
    Mr. Palmieri. I think we share the same exact view, that we 
need to find ways to better assist the Venezuelan people in the 
face of crises, of political, economic, and humanitarian 
nature.
    The State Department continues to press the Venezuelan 
Government to honor its commitments to the Vatican-led dialogue 
last fall, specifically to address the humanitarian needs of 
the Venezuelan people, to respect the role of the National 
Assembly, to----
    Mr. DeSantis. Well, we have obviously seen--those would all 
be great. The question is: Is it feasible that this regime will 
actually ever do any of that or do we really just need to hope 
that this regime crumbles and that we can have a new regime 
take its place.
    I mean, I don't see how Maduro will ever go in the 
direction that we want. I mean, you just look at how failed the 
society is. They are sitting on the number one amount of oil 
reserves in the world, and yet they have gas shortages. You 
have people that are losing 15, 20 pounds a year because they 
have food shortages. It is an absolute failure. But I think 
what he has shown is, any time the people suffer, he always 
errs on just trying to cling to his own power, and he has not 
been open to reform. Am I wrong?
    Mr. Palmieri. I think the record in Venezuela is very 
clear, as you outlined.
    Mr. DeSantis. Thank you. I yield back.
    Mr. Duncan. I thank the gentleman.
    Now I will go down to Ms. Kelly.
    Ms. Kelly. Thank you, Mr. Chairman, for holding a hearing 
today on advancing U.S. interests in the Western Hemisphere.
    The Trump administration has made it a priority to deter 
illegal migration and combat transnational criminal 
organizations. However, the President's budget significantly 
cuts assistance to every country and regional program in Latin 
America and the Caribbean. Many of these cuts will affect 
programs that directly work on issues related to immigration 
and crime.
    For example, the U.S. Strategy for Engagement in Central 
America, which addresses underlying conditions that affect 
migration, will receive a 39 percent funding cut. The budget 
has shifted the remaining aid toward security efforts and away 
from governance and economic growth programs.
    However, our country's economic and political circumstances 
affect this ability to provide national security and stability. 
Economic prosperity and good governance directly affect the 
country's ability to combat crime. That is why it is vital that 
the United States continues to provide assistance.
    With such dramatic cuts in aid, would the United States be 
able to continue to play a meaningful role in the economic and 
political development of countries in Latin America and the 
Caribbean? And how does cutting these programs endanger U.S. 
interest in the region? For both of you.
    Mr. Palmieri. You know, as Secretary Tillerson said in his 
testimony before the full committee's hearing in Congress, the 
level of funding devoted to a particular goal is not the most 
important factor in achieving it. We believe the budget request 
prioritizes programs that directly support national security 
imperatives in the region, including stopping transnational 
criminal organizations and reducing the flow of illegal 
migrants and illicit goods. And we will use all of the 
resources that we do have at our disposal to advance U.S. 
national security and economic prosperity in this region.
    Ms. Lynch. Yes. Likewise, and in a constrained budget 
environment, I think what the budget reflects is doubling down 
on the areas that you mentioned. As my colleague mentioned 
also, illegal migration and the production and transit of 
illegal drugs north.
    In addition, we are building on the programming that we 
have already done and increasing efforts to leverage resources 
from the private sector to get more engaged in these efforts as 
well. Also, we are encouraging other donors to get involved. My 
colleague mentioned the Central America Conference, which 
besides the member states from those countries, we had 
participation from Canada, from, you know, Spain, the EU has 
expressed interest in this region, as well as Japan. So it is a 
holistic approach to the region.
    Ms. Kelly. So you are trying to find others to supplement 
where those huge cuts are?
    Ms. Lynch. It is an opportunity for others to participate 
in these efforts. I mean, I think the environment--a secure and 
stable hemisphere is important to those donors that I mentioned 
as well as the private sector.
    Ms. Kelly. And have you been successful thus far in finding 
private or other countries?
    Ms. Lynch. Yes. We have leveraged several million dollars. 
I will throw out El Salvador as an example, where we have 
something like 11 or 12 small micro enterprises that have 
created over 20,000 jobs for Salvadorans and increased sales in 
the industries by $150 million. And that is with the help of 
the private sector.
    We also have experience with Microsoft in El Salvador that 
I mentioned previously, and then a consortium of private sector 
organizations--Hanes company, Wal-Mart, Citi, et cetera--that 
are involved in educational opportunities for at-risk youth.
    Ms. Kelly. There is a lot of countries to cover. So I hope 
you are successful.
    Following up on the Honduras investigation, are adequate 
reparations or other compensations contemplated for the 
Honduran victims of the Ahaus incident detailed in the report?
    Mr. Palmieri. I believe in previous appropriations there 
has been an effort to make some assistance to the group in that 
area, but we would want to get back a more fuller answer for 
the record.
    Ms. Kelly. I would appreciate that.
    Chairman, I yield back.
    Mr. Duncan. I thank the gentlelady.
    I recognize myself for another round of questions, just 
because of where we are in the hearing.
    Colombia, largest producer of coca. Largest supplier of 
cocaine seized here in America. Santos dramatically reduced the 
eradication during the FARC negotiations as a concession. So 
eradication went down, coca production went up, cocaine supply 
is at a--maybe an all-time high.
    How will the terms of the peace process, as it relates to 
coca eradication, affect the ability of the U.S. to support 
Colombian eradication efforts?
    Mr. Palmieri. I think moving forward with peace process 
implementation, the Colombian Government has developed a 
strategy to deal with this increase in coca leaf cultivation 
and the subsequent increase in cocaine production.
    We are working, our assistance programs on the 
counternarcotics side, to complement and support that effort. 
And I think it will be imperative that our effort and their 
efforts show immediate results as quickly as we can, given the 
increase in coca cultivation that you have singled.
    Mr. Duncan. All right. So the FARC and people that were 
involved in the FARC are now going to have to find other 
employment.
    The concern is for the Colombians and what these people are 
going to do. Is there anything in the budget USAID-wise, what 
is the number, if there are any, to assist the Colombians? Have 
the Colombians asked us to help them with that through USAID?
    Mr. Palmieri. There is definitely a component to the peace 
plan implementation and to our assistance program that 
envisions enhancing the state of Colombia's presence in these 
regions and promoting alternative developments.
    I don't know if you want to add anything.
    Ms. Lynch. Yes. The $105 million, I think, that we have 
requested in Fiscal Year 2018 will go toward three areas: 
Extending state presence where it hasn't been seen in a while 
in Colombia, improving rural economies there, and then 
reintegration and inclusive programming. USAID is working right 
now in 40 of the 58 most insecure areas of Colombia trying to 
transform those into areas that--where there will be licit 
possibilities for the farmers. Tumaco is a great example, where 
we have already helped about 5,000 families and created 2,000 
jobs.
    So we are supporting the Colombians to make further 
progress in those areas.
    Mr. Duncan. And I think if the peace process is going to be 
successful in the long run, you are going to have to find other 
employment. They are going to have to retrain. They are going 
to have to build schools and roads. The Colombians have got a 
challenge ahead of them. I think Santos knows that, based on 
our conversations.
    Ranking Member, do you have another question?
    Mr. Sires. Yes. I want to get back to Nicaragua.
    Is there any money in the budget to counteract the 
influence of Russia in Nicaragua? I know they sold 50 tanks and 
they are opening up a listening post. And I was wondering, how 
are we focusing on that?
    Mr. Palmieri. Well, we do provide some funding for 
international military education and training that allows us to 
maintain U.S. military engagement with elements of the security 
forces in Nicaragua. We also do some counternarcotics 
cooperation with Nicaraguan security forces as well.
    The Russian presence there is focused on a counternarcotics 
training facility that they have created.
    Mr. Sires. And as far as Costa Rica is concerned, I think 
they are one of our best friends that we have there in terms of 
dealing with this narcotraffic issue.
    Are we cutting any of their money?
    Mr. Palmieri. With respect to Costa Rica, I agree, sir, 
they are one of our best friends and allies in the entire 
hemisphere, not just in the fight against counter narcotics, 
but on a whole range of political issues.
    We will be looking at ways that we can use current year 
funding to assist them. In the outyear, they will benefit from 
the Central America Regional Security Initiative, and they will 
receive funding.
    Mr. Sires. Didn't we just turn a boat over to them or help 
them buy a boat?
    Mr. Palmieri. I have to confess, I do know that there is an 
effort underway, and I will have to get the specifics on the--
the desire to----
    Mr. Sires. I am not talking about a speedboat. You know, 
the deal with the----
    Mr. Palmieri. Yeah, yeah. I am sorry, sir. I will get you a 
fuller answer on that. I don't know, off the top of my head.
    Mr. Sires. Okay. Thank you.
    Mr. Duncan. The Chair will now recognize and welcome to the 
hearing Mr. Meeks. Five minutes.
    Mr. Meeks. Just when you thought you could go home early.
    Mr. Palmieri. It is good to see you, sir.
    Mr. Meeks. Good to see you.
    Let me start out--I had some questions and, really, I guess 
they probably were more appropriate--one is more appropriate 
for Secretary Tillerson than you, Mr. Palmieri, or Ms. Lynch, 
because it goes into conflicts of interest or potentially 
conflicts of interest on dealing with the President's 
businesses and what he is doing. I started to ask that 
question, but I think I am not going to ask either one of you 
that. I don't want to put you on the spot. I know you are there 
acting. I do not want you--there is only a few people there 
now. We don't need anybody to lose anybody. So I will hold off 
on asking those questions.
    But I will ask you questions that I asked the Secretary 
when he appeared here, and I was waiting to get an answer back, 
and I have not received one yet. And maybe you can give me an 
answer. And one of them deals with--the State Department led a 
U.S.-Brazil Joint Action Plan to Eliminate Racial and Ethnic 
Discrimination and Promote Equality and the U.S.-Colombia 
Action Plan on Racial and Ethnic Equality have been important 
ways to corroborate and coordinate efforts to address systemic 
racial discrimination.
    What resources--this is my question--within the State 
Department are dedicated to continue the support of these 
important mechanisms for the advancement of the marginalized 
and underserved communities in Brazil and Colombia?
    Mr. Palmieri. Thank you for that question, Mr. Meeks. And 
the Bureau of Western Hemisphere Affairs is very proud of the 
work we have done to promote social inclusion--race, ethnicity, 
and social inclusion programming into our efforts in the 
hemisphere. The two agreements that you--or initiatives you 
have pointed out with Brazil and Colombia will continue. We 
continue to have a staff who will work on that. And we will use 
different pots of available funding for exchange programs and 
other programs to continue to spotlight the need for progress 
in those two programs, sir.
    Mr. Meeks. USAID, Ms. Lynch?
    Ms. Lynch. Thank you.
    Yes. We consider this a core value of USAID and all the 
programming that we do. In this region, we have made it a top 
priority to have inclusivity in all of our programming. In 
Colombia, I mentioned earlier that we are in 40 of the 58 most 
difficult parts of the country. Those are largely populated by 
Afro-Colombians, indigenous people. Our inclusivity programming 
includes women and others that do not have traditional access 
to either services by the state or economic opportunities. So 
it is very important to us, and we will continue to address 
that issue.
    Mr. Meeks. Thank you.
    And, likewise--and I go back to Mr. Palmieri--the 
indigenous and Afro-Colombian communities in Colombia have been 
some of the hardest hit by the decades of conflict in that 
nation. And the peace agreement has the potential, at least, to 
bring advancements. But the post-conflict period of time has 
increased the vulnerability of many that are in that area. And 
when you look at the violence in the remote areas of Colombia, 
which is home to many of these African-Colombian indigenous 
communities and where a lot of the FARC is coming back into, 
how do you envision, with the Fiscal Year 2018 budget request, 
where there is 44 percent drop in assistance affecting the 
Afro-Colombian and indigenous population in Colombia? And to 
what extent could the State Department prepare to assist these 
communities and USAID in this post-conflict phase?
    Mr. Palmieri. I think as part of the Colombia peace 
process, working with these communities is a significant part 
of the peace plan implementation program of the Colombian 
Government. And I think as USAID has indicated, and I will let 
Sarah-Ann give more details, this continues to be a core value. 
And, obviously, any peace plan implementation process to be 
successful, it will need to address and incorporate these 
communities into the development efforts.
    Ms. Lynch. Thank you.
    Yes. Our programming in Colombia has been preparing for 
peace for some time. So we have included the indigenous, Afro-
Colombians, and other marginalized populations in our 
programming already. So what we plan to do is build on that 
programming and improve it and double-down on it and make sure 
that these populations are a priority.
    Mr. Meeks. Thank you.
    Mr. Chairman, I know I am out of time, but I just want to--
that is why I didn't and I will not ask either of these 
witnesses questions about my concerns and the conflicts of 
interest within the Trump administration. I just want to note 
for the record that I do have concerns. And I know some of my 
colleagues have concerns also. But I am not going to do that to 
these individuals, or to you, Mr. Chairman.
    Mr. Duncan. You are going to wait for Secretary Tillerson, 
I guess.
    Mr. Meeks. That is right. But I want the record to be noted 
any time I speak.
    Mr. Duncan. The gentleman yields back. And I know we are 
all looking forward to Secretary Tillerson coming to the 
committee on the budget, which will happen in full committee.
    I do have a letter to President Trump about Venezuela, 
which I would like to include in the record.
    I am going to leave the record open for 5 days for members 
to add additional statements, possible other questions, 
including that letter.
    So, without objection, that will remain open for 5 days.
    And there being no further business of the subcommittee, we 
will stand adjourned. And I thank the witnesses very much for 
being here.
    [Whereupon, at 4:05 p.m., the subcommittee was adjourned.]

                                  
                                    

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
